No. 19-465

N Qe supreme Court Of Mbe ouiteb state.0
PETER BRET CHIAFALO, LEVI JENNET GUERRA, AND
ESTHER VIRGINIA JOHN,
PETITIONERS,

CERTIFICATE OF
SERVICE

V.

STATE OF WASHINGTON

RESPONDENTS.

I hereby certify that:
1.

On November 8, 2019, the State of Washington's Brief In Opposition to

Petition For a Writ of Certiorari was served as follows:
2.

Three copies of the Brief In Opposition were deposited in the United

States Post Office, Olympia, Washington 98504, with first-class postage prepaid,
addressed to Counsel listed on the attached service list.
3.

All parties required to be served have been served.

4.

I have caused forty copies of the Brief In Opposition to be delivered to a

commercial carrier for delivery to the Court within two days.
5.

I am a member of the Bar of the Supreme Court of the United States.

DATED this 8th day of November 2019.
i'
1

R.A HEINTZ
Deputy Solicitor General

1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

SERVICE LIST
COUNSEL FOR PETITIONERS:

L LAWRENCE LESSIG
EQUAL CITIZENS
12 ELIOT ST
CAMBRIDGE MA 02138

Counsel of Record
617-496-1124
lessig@law.harvard.edu

JONAH O HARRISON
ARETE LAW GROUP PLLC
1218 THIRD AVE STE 2100
SEATTLE WA 98101

206-428-3250

SUMEER SINGLA — DANIEL A BROWN
— HUNTER M ABELL
WILLIAMS KASTNER & GIBBS PLLC
601 UNION ST STE 4100
SEATTLE WA 98101

206-628-6600

